981

RIGGS v. AIRBUS HELICOPTERS, INC.
Cite as 939 F.3d 981 (9th Cir. 2019)

the judgments of conviction simply state
that Shelby pleaded guilty to the firstdegree robbery offense charged, without
identifying a subsection of the Oregon
statute. The Shepard documents therefore
simply do not establish that Shelby was
charged or convicted under § 164.415(1)(b).
And, even if the Shepard documents could
be read as alleging crimes under both
subsections (a) and (b), the elements of the
offense of conviction remain unclear when
the defendant is convicted under a conjunctively phrased charging document.
United States v. Lee, 821 F.3d 1124, 1129
(9th Cir. 2016). Therefore, even assuming
that § 164.415(1) is divisible, the district
court erred in finding that Shelby had
been convicted of armed robbery under
subsection (b).
III.
For the reasons above, we REVERSE
the district court’s denial of Shelby’s
§ 2255 motion, and REMAND with instructions to grant the § 2255 motion and
for resentencing on an open record.4

Mary RIGGS, as Personal Representative of the Estate of Jonathan Neil
Udall, for the benefit of the Estate of
Jonathan Neil Udall, and Philip and
Marlene Udall as Next of Kin and
Natural Parents of Jonathan Neil
Udall, deceased, Plaintiff-Appellee,
v.
AIRBUS HELICOPTERS, INC.,
Defendant-Appellant,
v.
Matthew Hecker; Daniel Friedman;
Brenda Halvorson; Geoffrey Edlund;
Elling B. Halvorson; John Becker;
Elling Kent Halvorson; Lon A. Halvorson; Scott Booth; Papillon Airways, Inc., dba Papillon Grand
Canyon Helicopters; Xebec LLC,
Defendants-Appellees.
No. 18-16396
United States Court of Appeals,
Ninth Circuit.
Argued and Submitted February 14,
2019 San Francisco, California
Filed September 20, 2019

,
tempting to commit theft of United States
money and other property with the intent of
preventing and overcoming resistance to
the defendants taking and retention immediately after the taking of the property[.]
4.

The government argues for the first time on
appeal that because Shelby’s Oregon robbery
sentences were enhanced for the ‘‘use or
threatened use of a firearm’’ by ‘‘an additional mandatory minimum term of five (5) years
pursuant to ORS 161.610,’’ the judgments of

Background: After helicopter crash, personal representative of deceased passenger’s estate brought action in state court
against various entities and individuals, including a claim against helicopter manufacturer for defective design. After manufacturer removed the action, the United
conviction establish that he was convicted
under Or. Rev. Stat. § 164.415(1)(b). We decline to address this argument in the first
instance. See In re Mercury Interactive Corp.
Sec. Litig., 618 F.3d 988, 992 (9th Cir. 2010)
(‘‘[A]n issue will generally be deemed waived
on appeal if the argument was not raised
sufficiently for the trial court to rule on it.’’
(internal quotation marks and citation omitted)). Because we remand for resentencing on
an open record, the government may present
this argument to the district court.

982

939 FEDERAL REPORTER, 3d SERIES

States District Court for the District of
Nevada, James C. Mahan, J., 325
F.Supp.3d 1110, granted the motion of representative and other defendants to remand. Manufacturer appealed.
Holdings: The Court of Appeals, Rawlinson, Circuit Judge, held that as a matter of
apparent first impression, manufacturer,
which had received formally delegated legal authority from Federal Aviation Administration (FAA) relating to issuance of
supplemental certificates for FAA approval of an aircraft’s design, was not ‘‘acting
under’’ color of FAA as a federal agency,
within meaning of federal officer removal
statute.
Affirmed.
O’Scannlain, Senior Circuit Judge, filed a
dissenting opinion.
1. Removal of Cases O107(9)
The Court of Appeals reviews de novo
a district court’s decision to remand a removed case.
2. Removal of Cases O21
Helicopter manufacturer, which had
received formally delegated legal authority
from Federal Aviation Administration
(FAA) relating to issuance of supplemental
certificates for FAA approval of aircraft’s
design, was not ‘‘acting under’’ color of
FAA as a federal agency, within meaning
of federal officer removal statute, as would
support removal of action brought against
manufacturer, after helicopter crash, by
personal representative of deceased passenger’s estate, alleging manufacturer’s
defective design of helicopter; manufacturer was required to perform all delegated
functions in accordance with a detailed,
FAA-approved procedures manual specific
to the manufacturer, and manufacturer
was required to allow the FAA to make
any inspection and any flight and ground
test necessary to determine compliance

with governing federal regulations. 28
U.S.C.A. § 1442(a)(1); 49 U.S.C.A.
§§ 44702(d)(1), 44704(b); 14 C.F.R.
§§ 21.33, 183.41(a).
See publication Words and Phrases
for other judicial constructions and
definitions.

3. Removal of Cases O21
A private party is ‘‘acting under’’ color
of the office of a federal agency or official,
as basis for federal officer removal of an
action, if it is involved in an effort to assist,
or to help carry out, the duties or tasks of
the federal superior.
28 U.S.C.A.
§ 1442(a)(1).
See publication Words and Phrases
for other judicial constructions and
definitions.

4. Removal of Cases O21
A private party is not ‘‘acting under’’
color of the office of a federal agency or
official, as basis for federal officer removal
of an action, merely because it complies
with a federal regulation, even if the regulation is highly detailed and even if the
private party’s activities are highly supervised and monitored.
28 U.S.C.A.
§ 1442(a)(1).
See publication Words and Phrases
for other judicial constructions and
definitions.

Appeal from the United States District
Court for the District of Nevada, James C.
Mahan, District Judge, Presiding, D.C. No.
2:18-cv-00912-JCM-GWF
Carter G. Phillips (argued), Sidley Austin LLP, Washington, D.C.; Yvette Ostolaza and Robert S. Velevis, Sidley Austin
LLP, Dallas, Texas; David R. Carpenter,
Sidley Austin LLP, Los Angeles, California; James J. Pisanelli and Todd L. Bice,
Pisanelli Bice PLLC, Las Vegas, Nevada;
for Defendant-Appellant.

RIGGS v. AIRBUS HELICOPTERS, INC.
Cite as 939 F.3d 981 (9th Cir. 2019)

983

Gary C. Robb (argued) and Anita Porte
Robb, Robb & Robb LLC, Kansas City,
Missouri; Lawrence J. Smith, Bertoldo
Baker Carter & Smith, Las Vegas, Nevada; for Plaintiffs-Appellees.

a helicopter crash while touring the Grand
Canyon. The helicopter (Crashed Helicopter) was owned and operated by several of
the Hecker Defendants 1 and manufactured by AHI.

Patrick J. Kearns (argued), Wilson Elser Moskowitz Edelman & Dicker LLP,
San Diego, California, for Defendants-Appellees.

Plaintiff-Appellee Mary Riggs (Riggs)
filed this action in Nevada state court
against AHI and the Hecker Defendants,
alleging that the Crashed Helicopter was
defectively designed because the fuel tank
was not crash-resistant, and could not
withstand an impact of a minimal or moderate nature without bursting into flames
and engulfing the passenger compartment.2

Lauren L. Haertlein, General Aviation
Manufacturers Association, Washington,
D.C., for Amicus Curiae General Aviation
Manufacturers Association.
Before: Mary M. Schroeder, Diarmuid
F. O’Scannlain, and Johnnie B. Rawlinson,
Circuit Judges.
Dissent by Judge O’Scannlain
OPINION
RAWLINSON, Circuit Judge:
Appellant-Defendant Airbus Helicopters, Inc. (AHI) appeals the district court’s
order granting motions to remand to state
court. AHI contended that it properly removed this case to federal district court
pursuant to 28 U.S.C. § 1442(a)(1)
(§ 1442(a)(1)). According to AHI, the district court erroneously determined that
AHI did not satisfy the ‘‘acting under’’
requirement of § 1442(a)(1). Reviewing de
novo, we affirm the judgment of the district court.

AHI removed the case to federal district
court, asserting § 1442(a)(1) as the basis
for removal. That provision permits removal to federal court of an action against
‘‘any officer (or any person acting under
that officer) of the United States or of any
agency thereof, in an official or individual
capacity, for or relating to any act under
color of such office.’’ 28 U.S.C. § 1442(a)(1).
Riggs and the Hecker Defendants separately moved to remand the case to Nevada state court, on the basis that AHI did
not meet the requirements of § 1442(a)(1).
While the motions to remand were pending before the district court, AHI moved to
dismiss the lawsuit pursuant to Federal
Rule of Civil Procedure 12(b)(2) and
(b)(6).3

In February, 2018, John Udall, a resident of the United Kingdom, was killed in

The district court granted Hecker and
Riggs’s motions to remand. Noting that we
have not directly addressed § 1442(a)(1)
removal based on an FAA delegation, the
district court relied primarily on the Sev-

1.

2.

In this appeal, the Hecker Defendants are
Defendants-Appellees whose interests are
aligned with the interests of Riggs.

3.

Because we affirm the district court’s order
granting the motions to remand, AHI’s motion to dismiss is now moot.

I.

BACKGROUND

The named Hecker Defendants are: Matthew Hecker, Daniel Friedman, Brenda Halvorson, Geoffrey Edlund, Elling B. Halvorson,
John Becker, Elling Kent Halvorson, Lon A.
Halvorson, Scott Booth, and Papillon Airways, Inc., DBA Papillon Grand Canyon Helicopters, and Xebec LLC.

984

939 FEDERAL REPORTER, 3d SERIES

enth Circuit decision of Lu Junhong v.
Boeing Co., 792 F.3d 805 (7th Cir. 2015)
addressing an almost identical situation.
After applying the reasoning set forth in
Lu Junhong, the district court ruled that
AHI failed to meet the ‘‘acting under’’
requirement of § 1442(a)(1) because AHI’s
activities ‘‘pursuant to its [Federal Aviation Administration] delegation are rule
compliance rather than rule making.’’
II.

STANDARD OF REVIEW

[1] ‘‘We review de novo a district
court’s decision to remand a removed case
TTT’’ Corona-Contreras v. Gruel, 857 F.3d
1025, 1028 (9th Cir. 2017) (citation omitted).
III.

DISCUSSION

Before turning to the issue before us, we
first review the statutory framework that
sets the stage for our decision.
Congress has charged the Federal Aviation Administration (FAA) with regulating
aviation safety in the United States pursuant to the Federal Aviation Act, 49 U.S.C.
§ 40101, et seq. See Martin ex rel. Heckman v. Midwest Exp. Holdings, Inc., 555
F.3d 806, 808 (9th Cir. 2009). Pursuant to
this authority, the FAA promulgated the
Federal Aviation Regulations (FARs). See
14 C.F.R. § 1.1 et. seq. Standards for certification of helicopters, such as the Crashed
Helicopter, are set forth in 14 C.F.R.
§ 27.1.
After demonstrating compliance with
the FARs, an aircraft owner may obtain a
certificate from the FAA approving the
aircraft’s
design.
See
49
U.S.C.
§ 44704(a)(1); 14 C.F.R. §§ 21.21, et. seq.
4.

The dissent references the recent crashes of
the Boeing 737 Max to support the argument
that Boeing is authorized to self-certify the
safety of its fleet. See Dissenting Opinion, p.
992 n.2. However, in the aftermath of the
tragic crashes, it became clear that the FAA

The FAA requires a supplemental type
certificate (Supplemental Certificate) for
any design changes to a type-certificated
aircraft. See 49 U.S.C. § 44704(b). Therefore, AHI could make no design change to
the Crashed Helicopter absent the issuance of a Supplemental Certificate.
To help ameliorate the effect of the
FAA’s limited resources, 49 U.S.C.
§ 44702(d)(1) provides that the FAA ‘‘may
delegate to a qualified private person TTT a
matter related to–(A) the examination,
testing, and inspection necessary to issue a
certificate under this chapter; and (B) issuing the certificate.’’ The Eighth Circuit has
described this delegation approach as a
means of ‘‘reducing governmental costs
[and] eas[ing] the burden of regulation on
the aviation community by expediting the
issuance of requested certifications.’’ Charlima, Inc. v. United States, 873 F.2d 1078,
1081 (8th Cir. 1989).
Pursuant to 49 U.S.C. § 44702(d)(1), the
FAA instituted the Organization Designation Authorization (Designation) program
to delegate to organizations, such as AHI,
the FAA’s authority to inspect aircraft designs and issue certifications. See 14
C.F.R. § 183.41. An FAA Designation ‘‘allows an organization to perform specified
functions on behalf of the Administrator
related to engineering, manufacturing, operations, airworthiness, or maintenance.’’
14 C.F.R. § 183.41(a). In 2009, AHI became an FAA-certified Designation holder
with authority to issue Supplemental Certificates.4
[2] The ongoing dispute in this appeal
is whether AHI satisfies the ‘‘acting under’’ prong of § 1442(a)(1). AHI contends
was calling the shots, not Boeing. See Luz
Lato, Michael Laris, Lori Aratani and Damian
Paletta, Democracy Dies in Darkness, Washington Post (March 13, 2019) (reporting that
the FAA grounded the 737 Max planes after a
‘‘recommendation’’ from Boeing).

RIGGS v. AIRBUS HELICOPTERS, INC.
Cite as 939 F.3d 981 (9th Cir. 2019)

that it was formally delegated legal authority from the FAA, and that this delegation establishes that it was acting under
the federal government for purposes of
§ 1442(a)(1). As an FAA delegee, AHI
asserts that it does more than merely comply with federal law–it assists in carrying
out the FAA’s duties. Acknowledging that
it does not make or promulgate federal
law, AHI argues that the district court
erroneously relied on the holding from the
Seventh Circuit requiring entities to demonstrate a engagement in rule-making
rather than rule compliance to satisfy the
‘‘acting under’’ requirement of § 1442(a)(1).

985

[3] As a private party, AHI must demonstrate that it was ‘‘involved in an effort
to assist, or to help carry out, the duties or
tasks of the federal superior’’ to satisfy the
‘‘acting under’’ requirement of § 1442(a)(1).
Fidelitad, Inc v. Insitu, Inc., 904 F.3d
1095, 1099 (9th Cir. 2018) (citation and
internal quotation marks omitted). The
pivotal question then is whether AHI was
assisting the FAA to carry out the FAA’s
duties or whether AHI was ‘‘simply complying with the law,’’ which would not
bring it within the scope of § 1442(a)(1). Id.
at 1100.5

Supreme Court addressed § 1442(a)(1) in
the context of a defendant tobacco company’s contentions that its close working
relationship with a federal agency that directed and monitored its activities constituted conduct that satisfied the ‘‘acting
under’’ requirement. Rejecting this argument, the Court held that Philip Morris
did not satisfy the ‘‘acting under’’ requirement of § 1442(a)(1). Id. at 157, 127
S.Ct. 2301. In the Court’s view, Philip
Morris’s mere compliance with federal
regulations did not constitute ‘‘a statutory
basis for removal.’’ Id. at 153, 127 S.Ct.
2301 (‘‘A private firm’s compliance (or
noncompliance) with federal laws, rules,
and regulations does not by itself fall
within the scope of the statutory phrase
‘acting under’ a federal official.’’). According to the Supreme Court, the ‘‘acting
under’’ requirement is not satisfied by
mere compliance with a regulation ‘‘even
if the regulation is highly detailed and
even if the private firm’s activities are
highly supervised and monitored.’’6 Id.
The Court in Watson also noted that
Philip Morris had never been delegated
legal authority from a federal agency. See
id. at 156, 127 S.Ct. 2301.

[4] In Watson v. Philip Morris Cos.,
Inc., 551 U.S. 142, 145–47, 127 S.Ct. 2301,
168 L.Ed.2d 42 (2007), the United States

Although we have not directly addressed
removal under § 1442(a)(1) based on an
FAA designation, we have addressed re-

5.

The dissent notes that the FAA authorizes
certification of others. See Dissenting Opinion,
p. 994. However, that circumstance has zero
effect on the legal analysis dictated by Watson.

6.

The dissent makes an effort to distinguish
the controlling effect of Watson by focusing
on the delegation by the FAA of authority to
issue certificates. See Dissenting Opinion, pp.
994–95. However, as the Seventh Circuit cogently observed, several other industries, including the energy and health sectors, certify
compliance without ‘‘acting under’’ the regulating agencies. Lu Junhong, 792 F.3d at 809–
10. As the Seventh Circuit observed: ‘‘We

doubt that the Justices would see a dispositive
difference between certified compliance and
ordinary compliance. Indeed, Watson rejected
an argument TTT that a federal agency hadn’t
‘just’ required compliance with regulations
but also had ‘delegated authority’ to the manufacturer to determine compliance with those
regulations. The [Supreme] Court thought
that inadequate to make the manufacturer a
person ‘acting under’ the agency.’’ Id. at 809
(quoting Watson, 551 U.S. at 154–57, 127
S.Ct. 2301). We agree with the Seventh Circuit that the Supreme Court in Watson did
not articulate a distinction between ‘‘certified’’ compliance and compliance generally.
Watson, 551 U. S. at 151–52, 127 S.Ct. 2301.

986

939 FEDERAL REPORTER, 3d SERIES

moval under § 1442(a) in other contexts. In
Goncalves By & Through Goncalves v.
Rady Children’s Hosp. San Diego, 865
F.3d 1237, 1245–47 (9th Cir. 2017), we
considered whether the congressionally-authorized delegation of insurance claims administration by the United States Office of
Personnel Management (OPM) to private
insurers conferred federal officer status
upon those private insurers for purposes of
§ 1442(a)(1). In Goncalves, the private insurer placed a subrogation lien on the
proceeds of a settlement reached on behalf
of Goncalves with Rady Children’s Hospital. See id. at 1243. Goncalves filed a motion in state court to expunge the lien, and
the private insurer removed the matter to
federal court. See id. In determining
whether removal was proper, we addressed the ‘‘acting under’’ provision of
§ 1442(a)(1). We explained that ‘‘[f]or a
private entity to be ‘acting under’ a federal
officer, the private entity must be involved
in an effort to assist, or to help carry out,
the duties or tasks of the federal superior.’’
Id. at 1245 (citation omitted) (emphases in
the original). We noted that the actions
taken by the private entity ‘‘must go beyond simple compliance with the law and
help officers fulfill other basic governmental tasks.’’ Id. (citation and alterations
omitted).
We ultimately concluded that the private
insurer was ‘‘acting under’’ a federal officer. Not only did the OPM enter into a
contract with the private insurer for a
negotiated fee, the contract also authorized
the insurer to pursue subrogation benefits
that would otherwise be pursued by OPM.
See id. at 1246–47. But for the actions of
the private insurers, OPM would not be
reimbursed when an employee successfully
pursued a third-party for payment of
7.

Our colleague in dissent contends that the
majority opinion misapplies Watson. See Dissenting Opinion, p. 990. However, that con-

healthcare expenses incurred by the employee. See id. at 1247. OPM delegated to
the private insurer the authority to pursue
subrogation claims on behalf of the government. See id. at 1247. Under these
circumstances, we concluded that the private insurer was ‘‘acting under’’ a federal
officer. Id. We reasoned that the pursuit of
subrogation claims took the private insurer
‘‘well beyond simple compliance with the
law and helped [federal] officers fulfill other basic governmental tasks. Id. (quoting
Watson, 551 U.S. at 153, 127 S.Ct. 2301)
(alteration and internal quotation marks
omitted).
We recently grappled with the ‘‘acting
under’’ requirement of § 1442(a)(1) in Fidelitad, 904 F.3d 1095, and we included a
thoughtful discussion of Watson.7 In Fidelitad, a private company (Fidelitad) that
sold drones in Latin America placed orders for the drones from a private drone
manufacturer (Insitu). See id. at 1097–98.
The sales in Latin America required ‘‘export licenses from the federal government.’’ Id. at 1098. The two companies
subsequently had a falling out over the
provisions in the export licenses. See id.
Consequently, Fidelitad filed an action
against Insitu asserting, among other
claims, that Insitu improperly delayed
shipment of Fidelitad’s order. See id. at
1097. Insitu moved for removal under
§ 1442(a)(1), arguing that it was ‘‘acting
under’’ the federal government because it
delayed orders to Fidelitad to ensure that
Fidelitad complied with federal export
laws. See id. at 1098–100.
We held that in order to invoke
§ 1442(a)(1) removal, a defendant ‘‘must
demonstrate that (a) it is a person within
the meaning of the statute; (b) there is a
causal nexus between its actions, taken
tention completely ignores our similar analysis of Watson in Fidelitad.

RIGGS v. AIRBUS HELICOPTERS, INC.
Cite as 939 F.3d 981 (9th Cir. 2019)

pursuant to a federal officer’s directions,
and plaintiff’s claims; and (c) it can assert
a colorable federal defense.’’ Id. at 1099
(citations and internal quotation marks
omitted). We identified the ‘‘central issue’’
in the case as ‘‘whether Insitu was acting
pursuant to a federal officer’s directions’’
when denying shipment of the drones. Id.
(internal quotation marks omitted). We described the ‘‘paradigm’’ of a private entity
‘‘acting under a federal officer’’ as an individual ‘‘acting under the direction of a
federal law enforcement officer,’’ such as a
private citizen assisting in a law enforcement raid. Id. (citations and internal quotation marks omitted).
We focused on the fact that no federal
officer directed Insitu to delay the orders.
See id. at 1100. Nevertheless, Insitu maintained that it was ‘‘acting under’’ a federal
officer because the delay was for the purpose of ensuring compliance with the International Traffic in Arms Regulation, 22
C.F.R. §§ 120–130, which governs the sale
of military goods to foreign governments.
See id. Citing Watson and Lu Junhong,
we reiterated that mere compliance with
governing regulations ‘‘does not bring a
private actor within the scope of the federal officer removal statute.’’ Id.
We explained that Watson involved allegations that a cigarette company sold cigarettes that delivered more tar and nicotine
than advertised. See id. The company removed the case on the basis that it was
acting under the direction of a federal
officer by using a required test protocol
that was ‘‘closely monitored by the federal
government.’’ Id. We described the Supreme Court as unpersuaded by the company’s position, noting its holding that removal was not appropriate even though ‘‘a
federal agency directs, supervises, and
monitors a company’s activities in considerable detail.’’ Id. (citation and internal
quotation marks omitted). According to

987

our reading of Watson in Fidelitad, extensive ‘‘federal regulation alone’’ did not suffice to meet the ‘‘acting under’’ requirement of § 1442(a)(1). Id. We also observed
that the Supreme Court’s rationale in Watson counseled rejection of Insitu’s argument regarding its stated attempts to not
only comply with federal regulations, but
to ‘‘also attempt[ ] to enforce specific provisions in Fidelitad’s export licenses.’’ Id.
We recognized the Supreme Court’s rejection in Watson of the notion ‘‘that a company subject to a regulatory order (even a
highly complex order) is acting under a
federal officer.’’ Id. (quoting Watson, 551
U.S. at 152–53, 127 S.Ct. 2301) (parallel
citation and internal quotation marks omitted).
Finally, in Fidelitad we acknowledged
that government contractors may ‘‘act under federal officers.’’ Id. (citation omitted).
But, we clarified, the government did not
contract with Insitu and the regulation and
export licenses did not ‘‘establish the type
of formal delegation that might authorize
Insitu to remove the case.’’ Id. at 1101
(quoting Watson, 551 U.S. at 156, 127 S.Ct.
2301) (alteration omitted).
The dissent seeks to minimize the persuasive power of Fidelitad by commenting
that a different statutory regime was involved. See Dissenting Opinion, p. 995 n.3.
However, the dissent’s summary comment
elides the fact that we were confronted
with the identical issue in Fidelitad that
we resolve in this case, whether the ‘‘acting under’’ requirement of § 1442(a)(1) was
satisfied. The dissent also fails to grapple
with the reality that in Fidelitad, we cited
with approval the Seventh Circuit’s Lu
Junhong decision. Finally, despite criticizing the precedent cited by the majority,
the dissent did not, and cannot, cite one
case from this circuit that supports its
analysis of the ‘‘acting under’’ requirement. The best the dissent can muster is a

988

939 FEDERAL REPORTER, 3d SERIES

case from the Eleventh Circuit, Magnin v.
Teledyne Cont’l Motors, 91 F.3d 1424 (11th
Cir. 1996), decided eleven years prior to
Watson and an argument from a Solicitor
General that was rejected by the Supreme
Court. See Dissenting Opinion, pp. 993–
94.
Our analysis in Fidelitad is generally
consistent with the approach taken by the
Seventh Circuit in Lu Junhong, the case
relied on by the district court. Lu Junhong
involved a dispute over the design of a
plane that broke apart during flight while
landing in San Francisco. See 792 F.3d at
807. After being initially sued in state
court, Boeing contended that it was entitled to removal under § 1442(a)(1) because
it was ‘‘acting under’’ the authority of the
federal government, having been granted
the authority by the FAA ‘‘to use FAAapproved procedures to conduct analysis
and testing required for the issuance of
type, production, and airworthiness certifications for aircraft under Federal Aviation
Regulations.’’ Id. at 807–08. Boeing’s argument in Lu Junhong mirrors AHI’s posture in this appeal.
The Seventh Circuit rejected Boeing’s
argument. See id. at 810. The court reasoned that ‘‘we know from [Watson] that
being regulated, even when a federal agency directs, supervises, and monitors a company’s activities in considerable detail, is
not enough to make a private firm a person ‘‘acting under’’ a federal agency.’’ Id.
at 809 (citation and internal quotation
marks omitted).
In discussing its rejection of Boeing’s
argument that it, unlike Philip Morris in
Watson, possessed formal delegation from
the FAA of the authority to certify compliance, the Seventh Circuit explained:
[T]his [authority] is still a power to certify compliance, not a power to design
the rules for airworthiness. The FAA
permits Boeing to make changes to its

gear after finding that the equipment as
modified meets the FAA’s standards; it
does not permit Boeing to use gear that
meets Boeing’s self-adopted criteria.
Id. at 810 (emphasis in the original).
The Seventh Circuit interpreted Watson
as requiring the delegation of ‘‘rule making’’ authority rather than ‘‘rule compliance’’ certification to meet the ‘‘acting under’’ standard. Id. The Seventh Circuit
suggested that, at a minimum, Boeing
would have to be delegated ‘‘a power to
issue conclusive certification of compliance.’’ Id. (emphasis in the original). Because Boeing’s self-certification was not
binding on either the FAA or a reviewing
court, the Seventh Circuit determined that
Boeing did not come within the ‘‘acting
under’’ provision of § 1442(a)(1). See id.
The district court in this case adopted
the Seventh Circuit’s ‘‘rule-making-rulecompliance’’ distinction in finding that AHI
was not ‘‘acting under’’ a FAA delegation.
Although we cited Lu Junhong with approval in Fidelitad, 904 F.3d at 1100, we
notably did not incorporate the Seventh
Circuit’s rule-making-rule-compliance dichotomy. Rather, we referenced Lu Junhong for the proposition that compliance
with the law ‘‘does not bring a private
actor within the scope of the federal officer
removal statute’’ and neither does delegation of authority ‘‘to self-certify compliance
with the relevant regulations.’’ Id. (quoting
Lu Junhong, 792 F.3d at 808–10).
We are persuaded by the consistent reasoning of Watson, Goncalves, and Fidelitad to conclude that the district court committed no error in finding that AHI was
not ‘‘acting under’’ a federal officer by
virtue of becoming an FAA-certified Designation holder with authority to issue
Supplemental Certificates. AHI concedes
that, as a Designation holder, it ‘‘must
perform all delegated functions in accor-

RIGGS v. AIRBUS HELICOPTERS, INC.
Cite as 939 F.3d 981 (9th Cir. 2019)

dance with a detailed, FAA-approved procedures manual specific to each [Designation] holder.’’ (emphasis added). Language
such as ‘‘in accordance with’’ and ‘‘FAAapproved’’ suggest a relationship based on
compliance rather than assistance to federal officers. Cf. Goncalves, 865 F.3d at
1245–46 (noting that a private insurer was
‘‘acting under’’ a federal officer when it
entered into a contract with a government
agency to pursue third-party reimbursements). Importantly, one of the regulations
circumscribing an FAA delegee’s authority
to certify provides that ‘‘each applicant
must allow the FAA to make any inspection and any flight and ground test necessary to determine compliance with the applicable requirements of this subchapter.’’8
14 C.F.R. § 21.33 (emphasis added). This
language explicitly denotes compliance
and, as discussed, mere compliance with
federal directives does not satisfy the ‘‘acting under’’ requirement of § 1442(a)(1),
even if the actions are ‘‘highly supervised
and monitored.’’ Watson, 551 U.S. at 153,
127 S.Ct. 2301; see also Goncalves, 865
F.3d at 1245; Fidelitad, 904 F.3d at 1100.
AHI concedes that it cannot make design changes without approval from the
FAA. At oral argument, AHI even acknowledged that the FAA has the authority to rescind any action taken by AHI in
connection with the certification process.
These facts demonstrate that AHI was
duty-bound to follow prescriptive rules set
forth by the FAA, thus falling within the
‘‘simple compliance with the law’’ circumstance that does not meet the ‘‘acting under’’ standard. Goncalves, 865 F.3d at
1247; see also Fidelitad, 904 F.3d at 1100.
In sum, AHI’s actions as an issuer of
Supplemental Certificates fit squarely
within the precept of mere compliance with
regulatory standards and outside the ‘‘act8.

The dissent completely disregards this language requiring compliance with FAA regula-

989

ing under’’ provision of 1442(a)(1). Watson,
551 U.S. at 153, 127 S.Ct. 2301.
We foreshadowed the outcome of this
case in Fidelitad, noting with approval the
determination in Lu Junhong, 792 F.3d at
808–10, that an ‘‘airplane manufacturer
was not acting under a federal officer TTT
although federal law gave the manufacturer authority to self-certify compliance with
the relevant regulations.’’ 904 F.3d at 1100.
In keeping with our analysis in Fidelitad,
we hold that AHI was not acting under a
federal officer although federal regulations
gave AHI authority to issue Supplemental
Certificates in accordance with FAA regulations. See id. Although we agree generally with the holding of Lu Junhong, as we
did in Fidelitad, we decline to adopt the
rule-making-rule-compliance distinction articulated by the Seventh Circuit and relied
on by the district court. See Lu Junhong,
792 F.3d at 810. We are content to rely on
the more clearly articulated common analyses from Watson, Goncalves, and Fidelitad focusing on whether the private entity
is engaged in mere compliance with federal regulations. See e.g., Fidelitad, 904 F.3d
at 1100.
Finally, AHI relies heavily on the district court decision of Estate of Hecker v.
Robinson Helicopter Co., 2013 WL
5674982 (E.D. Wash. 2013). In Hecker, the
plaintiff brought an action in state court,
asserting state law claims for wrongful
death, negligence, and products liability
arising from a helicopter crash. See id. at
*1. There, as here, the helicopter manufacturer removed the case to federal court
under § 1442(a)(1), and the plaintiff moved
to remand the case for lack of jurisdiction.
See id. The district court held that the
defendant’s status as a Designation holder
satisfied the ‘‘acting under’’ requirement.
Id. at *2. However, not only is Hecker nontions. See Dissenting Opinion, pp. 994–95 (denying Airbus’ compliance obligation).

990

939 FEDERAL REPORTER, 3d SERIES

binding, it was decided before our decisions in Goncalves and Fidelitad.

Philip Morris Cos., 551 U.S. 142, 127 S.Ct.
2301, 168 L.Ed.2d 42 (2007).
I respectfully dissent.

IV.

CONCLUSION

AHI inspected and certified its aircraft
pursuant to FAA regulations and federal
law and could not make any structural or
design changes without the consent of the
FAA. The Supreme Court decision in Watson and our decisions in Goncalves and
Fidelitad fully support the proposition that
AHI’s mere compliance with federal regulations did not satisfy the ‘‘acting under’’
requirement of § 1442(a)(1). We join the
Seventh Circuit in concluding that an aircraft manufacturer does not act under a
federal officer when it exercises designated authority to certify compliance with
governing federal regulations.9
AFFIRMED.
O’SCANNLAIN, Circuit Judge,
dissenting:
The federal officer removal statute authorizes a defendant in a state court civil
action to remove the case to federal court
if it is ‘‘acting under’’ a federal agency. 28
U.S.C. § 1442(a)(1). In this case, the Federal Aviation Administration (‘‘FAA’’) ‘‘delegate[d]’’ to Airbus Helicopters, Inc. (‘‘Airbus’’) the authority to issue ‘‘certificates’’
on the agency’s behalf—certificates that
the FAA must otherwise issue on its own
before an aircraft can be lawfully flown. 49
U.S.C. §§ 44702(d)(1), 44704. Because Airbus undertakes these duties on the FAA’s
behalf, I conclude that Airbus ‘‘act[s] under’’ a federal agency within the meaning
of § 1442(a)(1). I believe that our court’s
contrary holding misunderstands the
FAA’s regulatory regime and misapplies
the Supreme Court’s decision in Watson v.
9.

Because we conclude that AHI failed to
meet the ‘‘acting under’’ requirement of
§ 1442(a)(1), we need not and do not address

I
This case turns on the interaction between two statutes: the Federal Aviation
Act, see 49 U.S.C. § 40103 et seq., and the
federal officer removal statute, see 28
U.S.C. § 1442.
A
1
In the Federal Aviation Act, Congress
charged the FAA with the duty to establish ‘‘minimum standards required in the
interest of safety’’ for the ‘‘design, material, construction, quality of work, and performance of aircraft, aircraft engines, and
propellers.’’ 49 U.S.C. § 44701(a)(1). The
FAA promulgated (and regularly revises)
the Federal Aviation Regulations, which
delineate such standards. See 14 C.F.R.
§ 1.1 et seq. Given the technological complexity of modern aircraft, these safety
standards dictate an aircraft’s design from
its critical components to its smallest detail. For instance, a helicopter—or, in the
FAA’s parlance, a ‘‘rotorcraft’’—must satisfy regulations covering everything from
its ‘‘landing gear’’ to the ‘‘number of selfcontained, removable ashtrays.’’ Id.
§§ 27.729, 27.853(c)(1).
Besides imposing substantive safety
standards, the Act also creates a ‘‘multistep certification process to monitor the
aviation industry’s compliance.’’ United
States v. S.A. Empresa de Viacao Aerea
Rio Grandense (Varig Airlines), 467 U.S.
797, 804, 104 S.Ct. 2755, 81 L.Ed.2d 660
(1984). Before an aircraft can lawfully
take flight, the FAA must issue a series
any other arguments advanced by the parties
on appeal. See Fidelitad, 904 F.3d at 1101 n.4.

RIGGS v. AIRBUS HELICOPTERS, INC.
Cite as 939 F.3d 981 (9th Cir. 2019)

of ‘‘certifications’’ or ‘‘certificates’’—terms
that the Act uses interchangeably. The
first of these is called a ‘‘type certificate,’’
which the FAA ‘‘shall issue’’ if it finds
the aircraft ‘‘is properly designed and
manufactured, performs properly, and
meets the regulations and minimum standards prescribed [by the FAA].’’ 49
U.S.C. § 44704(a)(1). Then, before the
manufacturer can mass produce an approved design, it must obtain a ‘‘production certificate.’’ Id. § 44704(c). To do so,
the manufacturer must show that duplicates of the design will, among other
things, ‘‘conform to the [type] certificate.’’
Id. Finally, the owner of each aircraft
must obtain an ‘‘airworthiness certificate’’
by showing that the aircraft ‘‘conforms to
its type certificate and, after inspection,
is in condition for safe operation.’’ Id.
§ 44704(d)(1). It is illegal to operate an
aircraft without an airworthiness certificate. See id. § 44711(a)(1).
Together, these certification requirements prohibit a manufacturer (or the aircraft’s eventual owner) from altering an
aircraft’s design without the FAA’s approval. Instead, if a manufacturer wishes
to make changes, it must seek one of two
possible certificates. If a ‘‘proposed change
TTT is so extensive that a substantially
complete investigation of compliance TTT is
required,’’ then the manufacturer must
seek a new type certificate from the FAA.
14 C.F.R. § 21.19. For less significant
changes, the holder of a type certificate
may seek a ‘‘supplemental type certificate.’’ 49 U.S.C. § 44704(b)(1) (emphasis
added); see also 14 C.F.R. § 21.113. Like
an ordinary type certificate, a supplemental certificate authorizes the holder then to
seek production and airworthiness certificates for the modified design. See id.
§ 21.119.
2
Perhaps because of this elaborate certification process, Congress offered the FAA

991

an unusual tool to ease its regulatory burden: the authority to delegate its duties to
the private sector. Specifically, the Act
states:
(d) DELEGATION.—(1) Subject to regulations, supervision, and review the Administrator may prescribe, the Administrator may delegate to a qualified private
person TTT a matter related to (A) the
examination, testing, and inspection necessary to issue a certificate under this
chapter; and (B) issuing the certificate.’’
49 U.S.C. § 44702(d)(1) (emphasis added);
see also Varig Airlines, 467 U.S. at 807,
104 S.Ct. 2755 (‘‘[T]he FAA obviously cannot complete this elaborate compliance review process alone. Accordingly, [the Act]
authorizes the Secretary to delegate certain inspection and certification responsibilities to properly qualified private persons.’’).
Since 1927, the FAA and its predecessor
agency have established programs delegating its certification authority to the private
sector—either to individual engineers or to
organizations. Establishment of Organization Designation Authorization Program,
70 Fed. Reg. 59,932, 59,932 (Oct. 13, 2005)
(codified at 14 C.F.R. pts. 21, 121, 135, 145,
183) [hereinafter ODA Rule]. In 2005, the
FAA exercised its authority under
§ 44702(d) to institute the Organization
Designation Authorization (‘‘ODA’’) Program, which ‘‘consolidat[es] and improve[s]’’ the ‘‘piecemeal organizational
delegations’’ previously developed. Id. at
59,933.
Under such program, the FAA authorizes ‘‘ODA Holders’’ to ‘‘perform specified
functions on behalf of the Administrator.’’
14 C.F.R. § 183.41. ODA Holders act as
‘‘representatives of the Administrator,’’
and when ‘‘performing a delegated function, [they] are legally distinct from and
act independent of the organizations that
employ them.’’ ODA Rule, 70 Fed. Reg. at

992

939 FEDERAL REPORTER, 3d SERIES

59,933. Further, to become an ODA Holder, an organization must sign a memorandum of understanding promising to ‘‘comply with the same standards, procedures,
and interpretations applicable to FAA employees accomplishing similar tasks.’’ Federal Aviation Administration, Organization
Designation Authorization Procedures,
Order 8100.15, at A1-17 (2006) [hereinafter
ODA Order].1
Since 2009, Airbus has been a ‘‘Supplemental Type Certification ODA.’’ Id. ¶ 2–6,
at 5. In this capacity, Airbus has the authority to ‘‘develop and issue supplemental
type certificates TTT and related airworthiness certificates.’’ Id. Airbus may issue
such certificates both for its own aircraft
or for those of other applicants. See id.
¶ 11–7, at 88. Although the FAA may
revoke Airbus’s ODA status or reconsider
its issuance of a specific certificate, see 49
U.S.C. § 44702(d)(2)–(3), a certificate issued by Airbus carries the same legal consequence as one issued by the FAA: it
gives the FAA’s formal approval to the
aircraft’s design (in the case of a supplemental type certificate) or the aircraft itself (in the case of an airworthiness certificate).2
B

acting under that officer) of the United
States or of any agency thereof, in an
official or individual capacity, for or relating to any act under color of such
office TTTT’’
28 U.S.C. § 1442(a)(1) (emphasis added). In
Watson, the Supreme Court held that a
person ‘‘act[s] under’’ a federal officer or
agency if his actions ‘‘involve an effort to
assist, or to help carry out, the duties or
tasks of the federal superior.’’ 551 U.S. at
152, 127 S.Ct. 2301. Although a ‘‘private
firm’s compliance TTT with federal laws,
rules, and regulations’’ does not itself satisfy the statute’s ‘‘acting under’’ requirement, id. at 153, 127 S.Ct. 2301 (emphasis
added), a formal ‘‘delegation of legal authority’’ goes beyond the ‘‘usual regulator/regulated relationship,’’ id. at 156–57,
127 S.Ct. 2301. Thus, Watson counsels that
the ‘‘delegation of legal authority TTT [to
act] on the Government agency’s behalf’’
satisfies § 1442(a)(1)’s ‘‘acting under’’ requirement. Id. at 156, 127 S.Ct. 2301.
II
Because the FAA delegates to ODA
Holders its formal legal authority to issue
certificates, I conclude, in respectful disagreement with the majority’s analysis,
that Airbus ‘‘act[s] under’’ the FAA.

The federal officer removal statute permits a defendant to remove to federal
court a state court action brought against
‘‘[t]he United States or any agency
thereof or any officer (or any person

Beginning with the text, the Federal
Aviation Act compels the conclusion that

1.

2.

Order 8100.15 ‘‘establishes the procedures,
guidance, and limitations of authority [the
FAA] grant[s] to an organization’’ under the
ODA Program. ODA Order, at i. Since 2006,
the FAA has amended Order 8100.15, see Federal Aviation Administration, Organization
Designation Authorization Procedures, Order
8100.15B (2018), but the 2006 version of the
Order governed at the time of the subject
helicopter’s manufacture and sale.

A
1

In the aftermath of the recent crash of the
Boeing 737 Max in Ethiopia, there seems to
be some appetite on Capitol Hill to revisit the
FAA’s private-public partnership. See Thomas
Kaplan, After Boeing Crashes, Sharp Questions
About Industry Regulating Itself, N.Y. Times
(Mar. 26, 2019); David Koenig & Tom Krisher, The FAA’s Oversight of Boeing Will Be
Examined in Senate Hearings, Time (Mar. 27,
2019). But until (and unless) such proposals
become law, we must apply the statute as it
presently exists.

993

RIGGS v. AIRBUS HELICOPTERS, INC.
Cite as 939 F.3d 981 (9th Cir. 2019)

the FAA delegates formal legal authority
to ODA Holders. By its own terms, 49
U.S.C. § 44702(d)(1) authorizes the FAA to
‘‘delegate’’ a ‘‘matter related to’’ the ‘‘examination, testing, and inspection necessary to issue a certificate’’ and ‘‘issuing the
certificate.’’ To ‘‘delegate’’ means to ‘‘give
part of one’s power or work to someone in
a lower position within one’s organization.’’
Delegate, Black’s Law Dictionary (9th ed.
2009); see also Delegate, Webster’s Third
New International Dictionary (unabr. ed.
1986) (‘‘[T]o entrust to another: transfer,
assign, commit ¢power delegated by the
people to the legislature$ ¢one may [delegate] one’s authority to a competent assistant$’’). Congress’s use of ‘‘delegate’’ thus
suggests that the FAA may transfer its
own formal legal powers to private persons, and the rest of the statute accords
with such interpretation. In 49 U.S.C.
§ 44702(a), for instance, Congress established that the ‘‘Administrator of the
[FAA] may issue’’ the long list of certificates mandated by the Act. See also 49
U.S.C. § 44704 (same). Accordingly, the
responsibility to issue certificates falls in
the first instance to the FAA, and it is this
authority that § 44702(d)(1) allows the
agency to ‘‘delegate.’’
Confirming Congress’s mandate, the
FAA itself describes the ODA Program as
a delegation of legal authority. Under the
program, ODA Holders like Airbus function as ‘‘representatives of the Administrator’’ and ‘‘perform[ ] a delegated function.’’
ODA Rule, 70 Fed. Reg. at 59,933; see also
14 C.F.R. § 183.41 (similar). The ODA
Order states that the program ‘‘delegate[s]
certain types of authority to organizations,’’ and that such designees ‘‘act on the
FAA’s behalf.’’ ODA Order, ¶ 1–1, at 1.
Further, these delegees ‘‘assist’’ the agency and ‘‘help carry out’’ its manifold
‘‘duties [and] tasks,’’ Watson, 551 U.S. at
152, 127 S.Ct. 2301 (emphasis removed),
because the ‘‘[d]elegation of tasks to these

organizations [allows] the FAA to focus
[its] limited resources on more critical areas,’’ ODA Rule, 70 Fed. Reg. at 59,933.
Altogether, Congress and the FAA expressly said—time and again—that the
agency indeed ‘‘delegate[s]’’ to private persons (like Airbus) the authority to issue
certificates, and Watson counsels that a
‘‘delegation of legal authority’’ satisfies
§ 1442(a)(1)’s ‘‘acting under’’ requirement.
551 U.S. at 154–57, 127 S.Ct. 2301. It
follows that Airbus ‘‘act[s] under’’ the
FAA.
2
I am not alone in this view. The Eleventh Circuit came to the same conclusion
in Magnin v. Teledyne Cont’l Motors, 91
F.3d 1424 (11th Cir. 1996), and the Solicitor General has endorsed that court’s holding. In its briefing for Watson, the Solicitor General argued that the defendant
could not seek removal under the federal
officer removal statute (as the Supreme
Court later held), but it cited Magnin to
support the argument that ‘‘a private citizen delegated authority to inspect aircraft
by the [FAA] acts under a federal officer
in conducting such an inspection and issuing a certificate of airworthiness.’’ Brief for
the U.S. as Amicus Curiae Supporting Petitioners at 26, Watson, 551 U.S. 142, 127
S.Ct. 2301. ‘‘The critical point,’’ the Solicitor General continued, ‘‘is that the individual acts on behalf of the FAA Administrator in conducting the inspection.’’ Id.
B
Despite the clear evidence of delegation,
the majority concludes that Airbus’s actions as an ODA Holder constitute mere
‘‘compliance’’ with FAA regulations. See
Maj. Op. at 994–95. With respect, I believe
the majority is wrong.

994

939 FEDERAL REPORTER, 3d SERIES

1
The majority’s critical error is that it
conflates Airbus’s two distinct roles as a
manufacturer and as an FAA delegee. Specifically, an ODA Holder acts as either the
regulated party or the regulator—depending on the specific function performed. It
is true, of course, that all manufacturers—
in their capacity as manufacturers—must
comply with the FAA’s numerous safety
standards whenever they design or build
an aircraft. But as an ODA Holder, the
organization also acts as a ‘‘representative[ ] of the Administrator.’’ ODA Rule, 70
Fed. Reg. at 59,933. In this capacity, the
manufacturer is ‘‘legally distinct from’’ the
organization, and its ‘‘authority TTT to act
comes from an FAA delegation.’’ Id. Put
differently, the manufacturer doffs its ‘‘aviation industry hat’’ and dons its ‘‘FAA
hat,’’ and so clad, the ODA Holder exercises the agency’s statutory authority to issue
certificates.
Perhaps because the issuance of certificates so obviously constitutes an exercise
of the FAA’s governmental power, the majority seeks to recast the ODA Program as
a ‘‘self-certification’’ regime. See Maj. Op.
at 988–90 (emphasis added). The majority
borrows such reasoning from Lu Junhong
v. Boeing Co., where the Seventh Circuit
compared a manufacturer’s authority to
issue certificates to ‘‘a person filing a tax
return’’ compelled to certify that he reported his income ‘‘honestly.’’ 792 F.3d
805, 809 (7th Cir. 2015). Such ‘‘certified
compliance,’’ the court reasoned, was indistinguishable from other forms of ‘‘ordinary
compliance’’ deemed insufficient to satisfy
§ 1442(a)(1). Id. at 810.
Once again, the majority—as Lu Junhong before it—evinces its misunderstanding of the regulatory regime. Although an
ODA Holder issuing a certificate must ensure that the aircraft complies with the
FAA’s safety standards, the organization’s

issuance of the certificate does more; it
stamps the FAA’s imprimatur on the aircraft. In so doing, the ODA Holder exercises a power derived from the agency and
independent from its responsibilities as a
manufacturer. Indeed, the FAA authorizes
ODA Holders like Airbus to issue certificates ‘‘to an applicant other than the ODA
Holder’’—thus confirming that such power
cannot be reduced to self-certification.
ODA Order, ¶ 11–6, at 88 (emphasis added). And because the nature of the certification authority should not fluctuate depending on who is granted the certificate,
the mere fact that Airbus certifies its own
aircraft has no bearing on whether it
‘‘act[s] under’’ the FAA.
In short, a true self-certification regime
(as with the taxpayer attesting to his income) involves an affirmation that the regulated party completed his duty; an ODA
Holder’s ‘‘certification’’ conveys the agency’s formal approval to the aircraft.
2
The majority’s flawed understanding of
the ODA Program blinds it to the differences between this case and Watson.
There, the defendant—Philip Morris—argued that the FTC had ‘‘delegated authority’’ to test cigarettes for tar and nicotine,
and that it ‘‘ ‘act[ed] under’ officers of the
FTC’’ when it conducted such testing.
Watson, 551 U.S. at 154, 127 S.Ct. 2301
(emphasis removed). But the Supreme
Court ‘‘found no evidence of any delegation
of legal authority from the FTC to the
industry association’’—the ‘‘fatal flaw’’ in
Philip Morris’s argument. Id. at 156, 127
S.Ct. 2301 (emphasis added). Accordingly,
the Court found no reason to treat ‘‘the
FTC/Philip Morris relationship as distinct
from the usual regulator/regulated relationship.’’ Id. at 157, 127 S.Ct. 2301.

995

U.S. v. BECERRA
Cite as 939 F.3d 995 (9th Cir. 2019)

Eager to fit this case into Watson’s
mold, the majority casts Airbus as a regulated party complying (or self-certifying
compliance) with FAA rules and regulations. See Maj. Op. at 988–90. But as
shown, Congress and the FAA said that
the FAA delegates ‘‘legal authority’’ to act
‘‘on the Government agency’s behalf.’’
Watson, 551 U.S. at 156, 127 S.Ct. 2301.
That delegation goes well beyond the ‘‘usual regulator/regulated relationship,’’ id. at
157, 127 S.Ct. 2301, and as a delegee Airbus ‘‘assist[s]’’ and ‘‘help[s] carry out’’ the
duties and tasks of the FAA, id. at 152,
127 S.Ct. 2301 (emphasis removed). Under
the correct reading of Watson, such a
scheme satisfies § 1442(a)(1)’s ‘‘acting under’’ requirement. Id.3

statute’s text is broader still, and our court
has discerned a ‘‘clear command from both
Congress and the Supreme Court that
when federal officers and their agents are
seeking a federal forum, we are to interpret section 1442 broadly in favor of removal.’’ Durham v. Lockheed Martin
Corp., 445 F.3d 1247, 1252 (9th Cir. 2006)
(emphasis added). The clear consequence
of Congress’s handiwork is that FAA delegees perform the agency’s tasks. Because
Airbus is such a delegee, § 1442(a)(1) entitles it to a federal forum.
I respectfully dissent.

,

III
The federal officer removal statute allows those who labor on the federal government’s behalf, and are therefore sued
in state court, to have such case tried in a
federal forum. In this case, the FAA authorized Airbus to issue certificates that
the agency would otherwise issue on its
own, and such delegation satisfies
§ 1442(a)(1)’s ‘‘acting under’’ requirement.
Of course, it might seem strange that a
manufacturer’s participation in this private-public partnership would permit it to
avoid state court; § 1442’s core purpose,
after all, is to give federal officials ‘‘a federal forum in which to assert federal immunity defenses.’’ Watson, 551 U.S. at 150,
127 S.Ct. 2301 (emphasis added). But the
3.

The Ninth Circuit cases that the majority
cites do not support its conclusion. See Maj.
Op. at 985–88 (citing Goncalves v. Rady Children’s Hosp. San Diego, 865 F.3d 1237 (9th
Cir. 2017), and Fidelitad, Inc. v. Insitu, Inc.,
904 F.3d 1095 (9th Cir. 2018)). Both cases
apply Watson to statutory regimes quite different from the FAA’s, and each decision’s
fact-intensive analysis defies extraction of a
simple rule that resolves this case. The major-

UNITED STATES of America,
Plaintiff-Appellee,
v.
Cesar Antonio BECERRA,
Defendant-Appellant.
No. 17-30050
United States Court of Appeals,
Ninth Circuit.
Argued and Submitted March
7, 2019 Portland, Oregon
Filed September 23, 2019
Background: Defendant was convicted in
the United States District Court for the
ity’s broad assertion that the court in Fidelitad was ‘‘confronted with the identical issue’’
that we confront here is simply wrong, Maj.
Op. at 987–88; Fidelitad did not address a
situation where an entity had formally and
explicitly been delegated authority to issue
certificates on behalf of a federal agency, let
alone the specific delegation that Airbus acts
under here.

